                                                                          Federal Register / Vol. 73, No. 46 / Friday, March 7, 2008 / Notices                                             12455

                                          DEPARTMENT OF HEALTH AND                                   ICCR will operate on a consensus                   II. Comments
                                          HUMAN SERVICES                                          basis whereby all decisions of the                      Interested persons may submit to the
                                                                                                  representatives of the regulatory                     Division of Dockets Management (see
                                          Food and Drug Administration                            members and subsequent actions must                   ADDRESSES) written or electronic
                                          [Docket No. FDA–2008–N–0138] (formerly                  be taken by consensus. Members agree                  comments regarding this document.
                                          Docket No. 2007N–0313)                                  to take steps as appropriate to                       Submit a single copy of electronic
                                                                                                  implement the items that have reached                 comments or two paper copies of any
                                          Outcome of Meeting of the                               consensus within the boundaries of                    mailed comments, except that
                                          International Cooperation on Cosmetic                   their legal and institutional constraints.            individuals may submit one paper copy.
                                          Regulation, September 26–28, 2007;                      In this respect, they agree to promote                Comments are to be identified with the
                                          Availability                                            the documents reflecting the consensus                docket number found in brackets in the
                                                                                                  within their own jurisdictions and to                 heading of this document. Received
                                          AGENCY:    Food and Drug Administration,                seek convergence of regulatory policies
                                          HHS.                                                                                                          comments may be seen in the Division
                                                                                                  and practices.                                        of Dockets Management between 9 a.m.
                                          ACTION:   Notice.                                          The members’ responsibilities will                 and 4 p.m., Monday through Friday.
                                          SUMMARY: The Food and Drug
                                                                                                  include providing overall strategic                     Please note that on January 15, 2008,
                                          Administration (FDA) is announcing the                  guidance and direction to activities of               the FDA Web site transitioned to the
                                          availability of the International                       ICCR; defining subject areas for ICCR                 Federal Dockets Management System
                                          Cooperation on Cosmetic Regulation                      activities and deciding on future topics              (FDMS). FDMS is a Government-wide,
                                          (ICCR) Outcome of Meeting, September                    for activity; exchanging information on               electronic docket management system.
                                          26–28, 2007. This notice is in keeping                  regulatory, trade, and market                         Electronic submissions will be accepted
                                          with an FDA/ICCR commitment to                          developments of interest; determining                 by FDA through FDMS only.
                                          transparency as well as providing                       policies related to the ICCR process,
                                                                                                  administration, and external                          III. Electronic Access
                                          opportunity for public comment.
                                                                                                  communications; appointing ad-hoc                       Persons with access to the Internet
                                          DATES: To ensure that the agency
                                                                                                  working groups to carry out technical                 may obtain the outcome of meeting
                                          considers your comment on this ICCR                     work as needed; adopting guidelines
                                          outcome of meeting, please submit                                                                             document at http://www.fda.gov/ohrms/
                                                                                                  and policy statements, including those                dockets/default.htm.
                                          written or electronic comments on the                   developed by the ad-hoc working
                                          outcome of meeting by July 2, 2008.                     groups; and taking on any other
                                                                                                                                                          Dated: February 29, 2008.
                                          ADDRESSES: Submit written comments                      initiatives that contribute to achieving              Jeffrey Shuren,
                                          to the Division of Dockets Management                   ICCR objectives.                                      Assistant Commissioner for Policy.
                                          (HFA–305), Food and Drug                                   It is recognized that successful                   [FR Doc. E8–4476 Filed 3–6–08; 8:45 am]
                                          Administration, 5630 Fishers Lane, rm.                  implementation requires the input of a                BILLING CODE 4160–01–S
                                          1061, Rockville, MD 20852. Submit                       constructive dialogue with the
                                          electronic comments to http://                          cosmetics’ industry trade associations
                                          www.regulations.gov.                                    and other relevant stakeholders, hence                DEPARTMENT OF HEALTH AND
                                          FOR FURTHER INFORMATION CONTACT:                        the scheduling of this public meeting.                HUMAN SERVICES
                                          Michelle Limoli, Office of the                             The industry trade associations of
                                                                                                                                                        Office of Inspector General
                                          Commissioner, Office of International                   each region will gather input in order to
                                          Programs (HFG–1), Food and Drug                         represent all affected industry sectors on            Office of the Secretary; Statement of
                                          Administration, 5600 Fishers Lane, rm.                  specific issues at ICCR meetings. Well in             Organization, Functions, and
                                          15A–55, Rockville, MD 20857.                            advance of ICCR meetings (to allow                    Delegations of Authority
                                          SUPPLEMENTARY INFORMATION:                              adequate time for preparation), industry
                                                                                                  will suggest items for priority actions to              This notice amends Part A (Office of
                                          I. Background                                           be consider by ICCR members. During                   the Secretary), chapter AF of the
                                             ICCR is a voluntary international                    the ICCR meeting, industry trade                      Statement of Organization, Functions,
                                          group of cosmetics regulatory                           associations will enter in a constructive             and Delegations of Authority for the
                                          authorities from the United States,                     dialogue with the members and give                    Department of Health and Human
                                          Japan, the European Union, and Canada.                  their opinion and directions for future               Services (HHS) to reflect a title change
                                          It should be noted that the definition                  work.                                                 and adjusted responsibilities within the
                                          and regulatory classification of                           According to specific needs, on an ad-             Office of Inspector General’s (OIG)
                                          ‘‘cosmetics’’ in the different countries/               hoc and temporary basis members may                   Office of Evaluation and Inspections
                                          regions is not identical. For this reason,              establish ICCR working groups with a                  (OEI) to better reflect the current work
                                          ICCR will consider some U.S. over-the-                  precise mandate. Working groups are                   environment and responsibilities with
                                          counter drugs that are regulated as                     created primarily for the purpose of                  regard to (1) oversight activities of the
                                          ‘‘cosmetics’’ outside the United States.                developing proposed guidelines and                    State Medicaid Fraud Control Units, and
                                          ICCR members are: FDA; the Ministry of                  policy statements for adoption by the                 (2) coordinative efforts within the
                                          Health, Labor, and Welfare of Japan; the                members. The working group                            Technical Support unit with the Chief
                                          European Commission Directorate                         participants are appointed by consensus               Information Officer for technology
                                          General Enterprise; and Health Canada.                  of the members. Outside technical                     support and compliance on information
                                          This multilateral framework was created                 experts may be invited on an as-needed                security requirements. Chapter AF was
                                          to identify ways to remove regulatory                   basis.                                                last amended on December 21, 2006 (71
sroberts on PROD1PC70 with NOTICES




                                          obstacles among the regions, while                         ICCR will meet at least once per year,             FR 76676).
                                          maintaining the highest level of global                 but may alter the frequency of meetings                 As amended, sections AFE.10 and
                                          consumer protection. The first group                    if considered necessary to ensure                     AFE.20 of Chapter AF now read as
                                          meeting occured in Brussels, Belgium,                   progress. The venue of meetings rotates               follows:
                                          September 26–28, 2007.                                  among the territory of the four members.              *     *     *     *      *


                                     VerDate Aug<31>2005   18:46 Mar 06, 2008   Jkt 214001   PO 00000   Frm 00089   Fmt 4703   Sfmt 4703   E:\FR\FM\07MRN1.SGM   07MRN1
                                          12456                           Federal Register / Vol. 73, No. 46 / Friday, March 7, 2008 / Notices

                                          Section AFE.10, Office of Evaluation and                DEPARTMENT OF HOMELAND                                Technology Directorate, Department of
                                          Inspections—Organization                                SECURITY                                              Homeland Security, 245 Murray Drive,
                                            This office is comprised of the following                                                                   Bldg. 410, Washington, DC 20528, 202–
                                                                                                  [Docket No. DHS–2008–2027]
                                          components:                                                                                                   254–5739.
                                            A. Immediate Office.                                  Homeland Security Science and                         SUPPLEMENTARY INFORMATION: Notice of
                                            B. Budget and Administrative Resources                Technology Advisory Committee                         this meeting is given under the Federal
                                          Division.                                                                                                     Advisory Committee Act, 5 U.S.C. App.
                                            C. Evaluation Planning and Support                    AGENCY:  Science and Technology                       (Pub. L. 92–463).
                                          Division.                                               Directorate, DHS.                                       The committee will meet for the
                                            D. Regional Operations.                               ACTION: Committee Management; Notice                  purpose of receiving sensitive
                                            E. Technical Support Staff.                           of Closed Federal Advisory Committee                  Homeland Security and classified
                                            F. Medicaid Fraud Policy and Oversight                Meeting.                                              briefings on Cyber Security, Chemical-
                                          Staff.                                                                                                        Biological Defense and S&T Program
                                                                                                  SUMMARY: The Homeland Security                        Assessments.
                                          Section AFE.20, Office of Evaluation and
                                          Inspections—Function                                    Science and Technology Advisory                         Basis for Closure: In accordance with
                                                                                                  Committee will meet March 20–21, 2008                 Section 10(d) of the Federal Advisory
                                          *      *     *       *      *                           at Booz Allen Hamilton, 3811 North
                                             B. Budget and Administrative Resources                                                                     Committee Act, this HSSTAC meeting
                                                                                                  Fairfax Drive, Arlington, VA 22203. The               will concern classified and sensitive
                                             This office develops OEI’s evaluation and            meeting will be closed to the public.
                                          inspection policies, procedures, and                                                                          matters within the meaning of 5 U.S.C.
                                                                                                  DATES: The Homeland Security Science                  552b(c)(1) and (c)(9)(B), which, if
                                          standards. It manages OEI’s human and
                                          financial resources; monitors OEI’s                     and Technology Advisory Committee                     prematurely disclosed, would
                                          management information systems; and                     will meet March 20, 2008 from 9 a.m.                  significantly jeopardize national
                                          conducts management reviews within HHS/                 to 5 p.m.; and on March 21, 2008, from                security and frustrate implementation of
                                          OIG and for other OIGs upon request. The                8:30 a.m. to 4:30 p.m.                                proposed agency actions, and that
                                          office carries out and maintains an internal            ADDRESSES: The meeting will be held at                accordingly, the meeting will be closed
                                          quality assurance system that includes                  Booz Allen Hamilton, 3811 North                       to the public.
                                          quality assessment studies and quality                  Fairfax Drive, Arlington, VA 22203.                     Dated: February 29, 2008.
                                          control reviews of OEI processes and                    Requests to have written material                     Jay M. Cohen,
                                          products to ensure that policies and                    distributed to each member of the                     Under Secretary for Science and Technology.
                                          procedures are effective, followed, and                 committee prior to the meeting should
                                          function as intended.                                                                                         [FR Doc. E8–4607 Filed 3–6–08; 8:45 am]
                                                                                                  reach the contact person at the address
                                                                                                                                                        BILLING CODE 4410–10–P
                                          *      *     *       *      *                           below by March 12, 2008. Send written
                                            E. Technical Support                                  material to Ms. Deborah Russell,
                                            This office provides statistical and                  Science and Technology Directorate,
                                                                                                                                                        DEPARTMENT OF HOMELAND
                                          database advice and services for inspections            Department of Homeland Security, 245
                                                                                                                                                        SECURITY
                                          conducted by the regional offices. It carries           Murray Drive, Bldg. 410, Washington,
                                          out analyses of large databases to identify             DC 20528. Comments must be identified                 Coast Guard
                                          potential areas of fraud and abuse. The office          by docket number DHS–2008–2027 and
                                          also coordinates with the Office of                     may be submitted by one of the                        [USCG–2008–0052]
                                          Management and Policy and Chief                         following methods:
                                                                                                                                                        Information Collection Request to
                                          Information Officer for technology support                 • Federal eRulemaking Portal: http://
                                          and compliance with information security                                                                      Office of Management and Budget;
                                                                                                  www.regulations.gov. Follow the
                                          requirements and government mandates,                                                                         OMB; Control Number: 1625–NEW
                                                                                                  instructions for submitting comments.
                                          regulations, and guidelines.                               • E-mail: HSSTAC@dhs.gov. Include                  AGENCY:Coast Guard, DHS.
                                            F. Medicaid Fraud Policy and Oversight                the docket number in the subject line of
                                          Staff                                                                                                               Sixty-day notice requesting
                                                                                                                                                        ACTION:
                                                                                                  the message.                                          comments.
                                            The Medicaid Fraud Policy and Oversight                  • Fax: 202–254–6177.
                                          Staff is responsible for overseeing the                    • Mail: Ms. Deborah Russell, Science               SUMMARY: In compliance with the
                                          activities of the 50 State Medicaid Fraud               and Technology Directorate, Department                Paperwork Reduction Act of 1995, the
                                          Control Units (MFCUs) (49 States and the
                                                                                                  of Homeland Security, 245 Murray                      U.S. Coast Guard intends to submit an
                                          District of Columbia). The staff provides
                                                                                                  Drive, Bldg. 410, Washington, DC                      Information Collection Request (ICR)
                                          advice and policy determinations to the
                                                                                                  20528.                                                and Analysis to the Office of
                                          Deputy Inspector General, OEI, in matters
                                                                                                     Instructions: All submissions received             Management and Budget (OMB)
                                          involving the planning, discussion, and
                                          coordination of policy and oversight
                                                                                                  must include the words ‘‘Department of                requesting an approval for the following
                                          activities affecting State MFCUs. The                   Homeland Security’’ and the docket                    collection of information: 1625–NEW,
                                          division ensures the MFCUs’ compliance                  number for this action. Comments                      Proceedings of the Marine Safety and
                                          with Federal grant regulations,                         received will be posted without                       Security Council, the Coast Guard
                                          administrative rules, and performance                   alteration at www.regulations.gov,                    Journal of Safety and Security at Sea;
                                          standards. It is also responsible for certifying        including any personal information                    online subscription request form. Before
                                          and recertifying the MFCUs on an annual                 provided.                                             submitting this ICR to OMB, the Coast
                                          basis.                                                     Docket: For access to the docket to                Guard is inviting comments as
                                          *      *     *       *      *                           read background documents or                          described below.
                                                                                                  comments received by the Homeland                     DATES: Comments must reach the Coast
sroberts on PROD1PC70 with NOTICES




                                            Dated: March 3, 2008.                                 Security Science and Technology                       Guard on or before May 6, 2008.
                                          Daniel R. Levinson,                                     Advisory Committee, go to http://                     ADDRESSES: To prevent duplicate
                                          Inspector General.                                      www.regulations.gov.                                  submissions to the docket [USCG–2008–
                                          [FR Doc. E8–4453 Filed 3–6–08; 8:45 am]                 FOR FURTHER INFORMATION CONTACT:              Ms.     0052], please submit them by only one
                                          BILLING CODE 4152–01–P                                  Deborah Russell, Science and                          of the following means:


                                     VerDate Aug<31>2005   18:46 Mar 06, 2008   Jkt 214001   PO 00000   Frm 00090   Fmt 4703   Sfmt 4703   E:\FR\FM\07MRN1.SGM   07MRN1
